<html>
<title> - EXPLORING THE NATIONAL CRIMINAL JUSTICE COMMISSION ACT OF 2009</title>
<body><pre>[Senate Hearing 111-411]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-411
 
     EXPLORING THE NATIONAL CRIMINAL JUSTICE COMMISSION ACT OF 2009

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON CRIME AND DRUGS

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 11, 2009

                               __________

                          Serial No. J-111-31

                               __________

         Printed for the use of the Committee on the Judiciary




[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]





                        U.S. GOVERNMENT PRINTING OFFICE
54-273 PDF                    WASHINGTON: 2010
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800
Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001















                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 JEFF SESSIONS, Alabama
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         JON KYL, Arizona
RICHARD J. DURBIN, Illinois          LINDSEY O. GRAHAM, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHN CORNYN, Texas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
RON WYDEN, Oregon
AMY KLOBUCHAR, Minnesota
EDWARD E. KAUFMAN, Delaware
ARLEN SPECTER, Pennsylvania
            Bruce A. Cohen, Chief Counsel and Staff Director
                  Matt Miner, Republican Chief Counsel
                                 ------                                

                    Subcommittee on Crime and Drugs

                 ARLEN SPECTER, Pennsylvania, Chairman
HERB KOHL, Wisconsin                 LINDSEY O. GRAHAM, South Carolina
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         JEFF SESSIONS, Alabama
RICHARD J. DURBIN, Illinois          TOM COBURN, Oklahoma
BENJAMIN L. CARDIN, Maryland
AMY KLOBUCHAR, Minnesota
EDWARD E. KAUFMAN, Delaware
               Hanibal Kemerer, Democratic Chief Counsel
                  Walt Kuhn, Republican Chief Counsel
                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Durbin, Hon. Richard J., a U.S. Senator from the State of 
  Illinois.......................................................     4
Graham, Hon. Lindsey, a U.S. Senator from the State of South 
  Carolina.......................................................     5
Specter, Hon. Arlen, a U.S. Senator from the State of 
  Pennsylvania...................................................     1

                               WITNESSES

Bratton, William, Chief, Los Angeles Police Department, Los 
  Angeles, California............................................     5
Nolan, Pat, Vice president, Prison Fellowship, Lansdowne, 
  Virginia.......................................................    12
Ogletree, Charles J., Professor, Harvard Law School, Cambridge, 
  Massachusetts..................................................     8
Walsh, Brian W., Senior Legal Research Fellow, The Heritage 
  Foundation, Washington, D.C....................................    10
Webb, Hon. Jim, a U.S. Senator from the State of Virginia........     2

                       SUBMISSIONS FOR THE RECORD

American Federation of Government Employees, AFL-CIO, Beth 
  Mothen, Legislative and Political Director, Washington, DC., 
  statement......................................................    28
Bratton, William, Chief, Los Angeles Police Department, on behalf 
  of Major Cities Chiefs Association, Los Angeles, California, 
  statement......................................................    31
Burnett, Arthur L., Sr., Senior Judge, National Executive 
  Director, National African American Drug Policy Coalition Inc., 
  Washington, DC., statement.....................................    43
Cowan, Jon, President, Third Way, Washington, DC., letter and 
  attachment.....................................................    61
Capazorio, Greg, President, Criminon International, Glendal, 
  California, statement..........................................    75
Clarke, Harold W., Commissioner, Massachusetts Department of 
  Correction, President, American Correctional Association and 
  formal President, Association of State Correctional 
  Administrators, Boston, Massachusetts, statement...............    79
Federal Cure, Incorporated, Mark A. Varca, J.D., Acting Chairman, 
  Plantation, Florida, letter....................................    84
Goodwill Industries International, Jim Gibbons, President and 
  Chief Executive Officer, Rockville, Maryland, statement and 
  attachment.....................................................    85
Hawley, Ronald P., Executive Director, Search, The National 
  Consortium for Justice Information and Statistics, Sacramento, 
  California, statement..........................................   105
Human Rights Watch, David C. Fathi, Director, US Program, 
  Washington, DC., letter and attachment.........................   107
Hynes, Charles J., District Attorney, Kings County, Brooklyn, New 
  York, statement................................................   110
Just Detention International, Lovisa Stannow, Executive Director, 
  Washington, DC., statement.....................................   113
Murray, Don, National Association of Counties, Washington, DC., 
  statement......................................................   116
National Association of Criminal Defense Lawyers, John Wesley 
  Hal, President, Washington, DC., statement.....................   121
NCCD, Center for Girls and Young Women, Washington, DC., 
  statement......................................................   123
Nolan, Pat, Vice president, Prison Fellowship, Lansdowne, 
  Virginia, statement............................................   125
Ogletree, Charles J., Professor, Harvard Law School, Cambridge, 
  Massachusetts, statement.......................................   130
Rand Corporation, Greg Ridgeway, Santa Monica, California, letter   158
Simmons, Russell, Co-Founder, Def Jam Records, Founder, Rush 
  Communications, New York, New York, statement..................   159
Stewart, Julie, President, Families Against Mandatory Minimums, 
  Washington, DC.,...............................................   160
Walsh, Brian W., Senior Legal Research Fellow, The Heritage 
  Foundation, Washington, D.C., statement........................   166
Webb, Hon. Jim, a U.S. Senator from the State of Virginia, 
  statement......................................................   182

                 ADDITIONAL SUBMISSIONS FOR THE RECORD

Submissions for the record not printed due to voluminous nature, 
  previously printed by an agency of the Federal Government, or 
  other criteria determined by the Committee, list:

Rand Corporation, Technical report


     EXPLORING THE NATIONAL CRIMINAL JUSTICE COMMISSION ACT OF 2009

                              ----------                              


                        THURSDAY, JUNE 11, 2009

                               U.S. Senate,
                        Committee on the Judiciary,
                           Subcommittee on Crime and Drugs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3:01 p.m., Room 
SD-226, Dirksen Senate Office Building, Hon. Arlen Specter, 
Chairman of the Subcommittee, presiding.
    Present: Senators Klobuchar, Durbin, and Graham.

 OPENING STATEMENT OF HON. ARLEN SPECTER, A U.S. SENATOR FROM 
                   THE STATE OF PENNSYLVANIA

    Senator Specter. Good afternoon, ladies and gentlemen. The 
hour of 3:00 having arrived, we will proceed with this hearing 
before the Subcommittee on Crime and Drugs of the Committee on 
the Judiciary.
    Today we have a very important hearing to explore the 
legislation introduced by Senator Webb on the National Criminal 
Justice Commission, to take up a great many topics of great 
importance.
    The Commission is structured to take up a comparison of 
United States incarceration policies with those of other 
similar political systems, including western Europe and Japan, 
take up the costs of incarceration policies, including those 
associated with gangs and drugs, the impact of gang activity in 
our country, drug policy and its impact on incarceration, crime 
sentencing and reentry, policies regarding mental illness, the 
historic role of the military as it impacts on these criminal 
law issues, and any other subjects which the Commission might 
deem appropriate.
    Our criminal justice system continues to be one of 
perplexing complexity in terms of how we deal with it, a 
tremendous amount of violent crime, a tremendous amount of 
drug-related crime, very, very heavy statistics on 
incarceration. My work in the field has been extensive, and I 
have long believed that if we approached the criminal justice 
system with two principal objectives, that a great deal could 
be done to restrain it: with respect to career criminals who 
commit 70 percent of the crimes, separating them from society; 
with respect to the others who are going to be released, have 
realistic policies of rehabilitation, detoxification, literacy 
training, job training, reentry. We have an enormous problem on 
recidivism, which has a very high cost on property damage, and 
an even higher cost on human suffering.
    Senator Webb approached me some time ago, a few months ago, 
and told me about his ideas and asked if I would co-sponsor his 
legislation, and I did so gladly. He was looking for bipartisan 
support. I am sorry I cannot give that particular quality to 
him.
    [Laughter.]
    Senator Specter. But I can give him considerable support on 
the merits.
    Senator Webb came to the Senate, with his election in 2006, 
with an extraordinary record: a graduate of the Naval Academy 
in 1968, a law degree from Georgetown in 1975, commended for 
his excellence at the Naval Academy. Chose the Marine Corps. 
Finished first in a class of 243. Got Marine Corps officers' 
basic training in Quantico, served in Vietnam in heavy combat, 
two Purple Hearts, heavily decorated with the Navy Cross and 
the Silver Star medal, two bronze medals. Served as Secretary 
of the Navy, so he has an extraordinary background coming to 
the position of U.S. Senator from Virginia.
    Senator Webb, we look forward to your testimony. I put that 
in the plural because, as I stated to you earlier, you could 
either sit here and testify or you could sit there. You can sit 
there and then come up here and join me as we move to the next 
panel of witnesses.
    The floor is yours.

 STATEMENT OF HON. JIM WEBB, A U.S. SENATOR FROM THE STATE OF 
                            VIRGINIA

    Senator Webb. Thank you, Mr. Chairman. I would like to take 
about 5 minutes and just explain a little bit about my concerns 
in this area. I would begin by thanking you for being, 
originally, my lead Republican co-sponsor on this measure, and 
also for your leadership in calling this hearing and helping to 
move the legislation forward.
    Also, Ranking Member Graham was an original sponsor on the 
bill. I think we had nine members of the Judiciary Committee 
who were sponsors on this legislation. I know full well your 
work in this area over many, many years, and appreciate your 
support in this endeavor. I look forward to continuing to work 
with this Subcommittee, and also the full Committee, and 
hopefully to move this legislation this year and to get to the 
business of the commission that we're attempting to form here.
    Mr. Chairman, we find ourselves as a Nation in the midst of 
a profound, deeply corrosive crisis that we have largely been 
ignoring at our peril. The national disgrace of our present 
criminal justice system does not present us with the horrifying 
immediacy of the 9/11 attacks on the Twin Towers and the 
Pentagon, which in the end rallied our Nation to combat 
international terrorism. It is not as visibly threatening as 
the recent crash in our economy.
    But the disintegration of this system day by day, year by 
year, and the movement toward mass incarceration with very 
little attention being paid to clear standards of prison 
administration or meaningful avenues of reentry for those who 
serve their time, is dramatically affecting millions of lives 
in this country. It's draining billions of dollars from our 
economy. It's destroying notions of neighborhood and family in 
hundreds, if not thousands, of communities across the country. 
Most importantly, it is not making our country a safer or a 
fairer place.
    I believe it is in the interests of every American, in 
every community across this land, that we thoroughly examine 
our entire criminal justice system in a way that allows us to 
interconnect all of its different aspects when it comes to 
finding proper approaches and solutions to each different 
component part. I am convinced that the most appropriate way to 
conduct this examination is through a Presidential-level 
commission, tasked to bring forth specific findings and 
recommendations for the Congress to consider and, where 
appropriate, to act.
    This particular piece of legislation is a product of long 
years of thought, research, and reflection on my part as an 
attorney, as a writer, including time as a journalist 25 years 
ago where I examined the Japanese prison system for a cover 
story for Parade magazine, and finally as a government 
official.
    In the Senate, I am grateful that Senator Schumer and the 
Joint Economic Committee allowed us the venue of that committee 
to conduct hearings over the past 2 years on the impact of mass 
incarceration and of drugs policy. I also appreciate working 
with the George Mason University Law School to put together a 
comprehensive symposium that brought people from across the 
country and to talk about our drug policy, and also 
collaborating with a number of other institutions working on 
such issues, including The Brookings Institution.
    Once we started examining this issue over the past 2 years, 
people from all across the country reached out to us, people 
from every political and philosophical perspective that comes 
into play, and from all walks of life. Since I introduce the 
National Criminal Justice Commission Act 2 months ago, we've 
seen an even greater outpouring of interest in, and support 
for, this approach. My office, just in the past 2 months, has 
engaged with more than 100 organizations, representing 
prosecutors, judges, defense lawyers, former offenders, 
advocacy groups, think tanks, victim rights organizations, 
academics, prisoners, and law enforcement officials. In the 
Senate, I am very grateful at this point that 28 of my 
colleagues have joined me on the bill--as I said, I believe 9 
from the Judiciary Committee.
    The goal of this legislation is to establish a national 
commission to examine and reshape America's entire criminal 
justice system, the first such effort in many, many years. Mr. 
Chairman, you laid out the areas that we believe should be 
focused on. I won't reiterate them here. I have a full 
statement that I would ask be submitted for the record at this 
point, if I may.
    [The prepared statement of Senator Webb appears as a 
submission for the record.]
    Senator Webb. I would like to say that we worked, along 
with staff on this Committee, to bring a panel today that I 
think is truly extraordinary in its breadth and in its depth of 
understanding. It would be of great benefit for every American 
to consider what they're about to hear from this panel. Again, 
I appreciate you having moved this legislation as quickly as 
you have and called this hearing, and it is my earnest hope 
that we can enact this legislation by the end of this year.
    Thank you, Mr. Chairman.
    Senator Specter. Senator Webb, thank you for that opening 
statement. I have already applauded your work in the initiation 
of the legislation, and join you in it. I believe it's going to 
receive widespread support. I can assure you that as Chairman 
of this Subcommittee I will move it promptly, and will press to 
have it moved by the full Committee, and press to have it 
considered by the full Senate and try to get it done. I think 
from a vantage point of mid-June, it could be done. A lot of 
work needs to be done in this field and this commission is a 
very, very good projection point. It's not a starting point, 
it's a projection point.
    Let me welcome the arrival of Senator Durbin, and again 
express my thanks to him for yielding to me the gavel. He had 
been chairman of this----
    Senator Durbin. I thank the chair and am looking forward 
very much to the testimony you are going to receive from this 
panel. Thank you, Mr. Chairman.
    Senator Specter. Senator Durbin, you've arrived just in 
time to question the witness. Senator Durbin, in lieu of 
questioning the witness, is now a fugitive.
    [Laughter.]
    Senator Specter. Would you care to make an opening 
statement?

 STATEMENT OF HON. RICHARD J. DURBIN, A U.S. SENATOR FORM THE 
                       STATE OF ILLINOIS

    Senator Durbin. I'll just make a brief statement. Thank 
you, Mr. Chairman, for this Subcommittee hearing. When I handed 
the baton over, it was with the request that you honor my 
commitment to Senator Webb for this hearing, and Senator 
Specter quickly said, ``But I'm already a co-sponsor of his 
bill.'' I said, ``Well, then I think we're going to do quite 
well here.''
    I had an occasion a few weeks ago. We have an annual dinner 
with justices of the Supreme Court and I had an occasion to sit 
with one--I won't name names--and I said, now, if you were to 
pick a topic for the Crime Subcommittee of Judiciary, what 
would you pick, having given your life to law and being in the 
highest court of the land? He said, ``You've got to do 
something about our corrections system. If you set out to 
design a system, you would never come up with what we have 
today.''
    I think it is a challenge to all of us to come up with a 
sensible way to keep America safe, yet to treat prisoners 
humanely and to do our very best to make sure that no 
additional crimes are committed. Recidivism means another crime 
and another victim, and we have to make certain that our 
system, as Senator Webb has led us into this conversation, 
really addresses so many aspects that need to be considered.
    I've talked to Senator Specter about one of particular 
concern to me, and that is the question of mental illness and 
incarceration, both sides, the mentally ill who go into prison, 
how they are treated, if they are treated, and what happens in 
a prison that may aggravate or create mental illness.
    Dr. Atil Gowonday wrote a recent article in The New Yorker 
about the impact of solitary confinement on people who are in 
prison, most of whom were likely to be released, and in what 
psychological condition they go back into the world. It's time 
for an honest appraisal and I think Senator Webb's proposal for 
a Presidential look at this issue is long overdue, a commission 
that will take a look at every aspect of it, give us sound 
advice, and I hope that we have the political courage to follow 
it.
    Thank you, Mr. Chairman.
    Senator Specter. Thank you, Senator Durbin.
    I will now call our panel. Chief Bratton, Professor 
Ogletree, Mr. Brian Walsh, Mr. Pat Nolan.
    We've been joined by the distinguished Ranking Member of 
the Subcommittee, Senator Lindsey Graham. Senator Graham, would 
you care to make an opening statement?

STATEMENT OF HON. LINDSEY GRAHAM, A U.S. SENATOR FROM THE STATE 
                       OF SOUTH CAROLINA

    Senator Graham. Thank you, Mr. Chairman, very quickly. I 
understand that Senator Webb testified. I regret I was not here 
when he was testifying. I have joined forces with him and other 
Senators to take a good, hard look at this. I want to applaud 
Senator Webb for bringing this to our attention. It's something 
he's been passionate about for a long time, I think. It's not 
about being tough on crime, it's just being smart as a Nation.
    We have a lot of people in jail in this country, more than 
most, and we've got to figure out who needs to be there, and 
are there other ways when it comes to some prisoners. I believe 
there are alternatives out there available, and make sure that 
our criminal justice system is not over-burdened and overloaded 
with people that could maybe survive in some alternative 
system. So, I welcome this hearing, and thank you for holding 
it, Mr. Chairman.
    Senator Specter. Thank you very much, Senator Graham.
    Our first witness is the Chief of Police of Los Angeles, 
William J. Bratton, who also served as Chief of Police in New 
York City and in Boston. He comes to this witness table with 
very, very extensive experience in law enforcement. During his 
tenure at the Los Angeles Police Department, Part One crimes 
have been reduced by 33 percent and homicides have decreased by 
41 percent. In New York City, he was commissioner, working with 
Mayor Guiliani's policy reforms and the unique Combat Stat 
Crime Tracking System.
    He has a bachelor of science in law enforcement from Boston 
State University. He's a graduate of the FBI Executive 
Institute and is about to receive a very unusual title: 
Honorary Commander of the Most Excellent Order of the British 
Empire, one step below knighthood--and I'm sure it's just a 
stepping stone. Thank you for joining us, Chief Bratton. We 
look forward to your testimony.

    STATEMENT OF CHIEF WILLIAM BRATTON, LOS ANGELES POLICE 
              DEPARTMENT, LOS ANGELES, CALIFORNIA

    Chief Bratton. Chairman Specter and distinguished members 
of the Subcommittee, in my capacity as president of the Major 
City Chiefs Association and----
    Senator Specter. Is your microphone on?
    Chief Bratton. Excuse me. My apologies, sir.
    Senator Specter, distinguished members of the Subcommittee, 
in my capacity as president of the Major City Chiefs 
Association and Chief of the Los Angeles Police Department, I 
am pleased to be able to contribute to the discussion and 
debate on what I view as some of the most important issues 
facing our society today.
    The most important message that I want to leave with you is 
that we must focus on preventing crime before it occurs rather 
than respond to it after it does. This has been the focus of my 
entire career, from a rookie cop in Boston, to now chief of the 
Los Angeles Police Department.
    One of the great failures of the President's Commission on 
Law Enforcement, Administration and Justice was the acceptance 
of the widely held belief at that time that police should focus 
their professionalization efforts on the response to crime and 
not the prevention of it. They mistakenly believe that the so-
called societal causes of crime--racism, poverty, demographics, 
the economy, to name a few--were beyond the control and 
influence of the police.
    They were wrong. Those causes of crime are, in fact, simply 
influences that can be significantly impacted by enlightened 
and progressive policing. The main cause of crime, human 
behavior, certainly is something that is a principal 
responsibility and obligation of the police to influence. The 
challenge in our democratic society is always to police 
constitutionally, consistently, and compassionately.
    The main criminal justice concerns in 1965 seemed to 
revolve around the hostile relationship between police and the 
African-American community, organized crime, a dearth of 
research, problems with the growing juvenile justice system, 
gun control, drugs, individual rights of the accused, police 
discretion, civil unrest, and a broken and isolated correction 
system struggling to balance rehabilitation and custody issues. 
Sound familiar? Here we are, 40 years later.
    The supervised population at the time was quoted as 
hovering around one million people. That number has now swollen 
to an estimated seven million. While we failed to effectively 
address the tremendous increase in crime and violence in the 
1970s and 1980s, we finally started to get it right in the 
1990s.
    Young police leaders were encouraged and financed in their 
pursuit of education--and I am a product of an LEAA grant in 
the 1970s--and that exposure led to the change in the way we do 
business. We had been focused on a failed reactive philosophy, 
emphasizing random patrol, rapid response, and reactive 
investigations.
    In the late 1980s, we began to move to a community policing 
model characterized by prevention, problem-solving, and 
partnership. We turned the system on its head and we were 
successful in driving significant crime reduction through 
accountability, measuring what matters, partnership with the 
community, and policing strategies that emphasized problem-
solving, and broken-windows-quality-of-life initiatives.
    We developed Comp Stat in New York, with its emphasis on 
accountability, and use of timely, accurate intelligence to 
police smarter, putting cops on the dots. The results, as 
reflected by the dramatic crime declines of that period, 
continue to this day in New York, Los Angeles, and many other 
major American cities.
    The main criminal justice concerns for policymakers today 
revolve around the threat posed by gangs rather than 
traditional organized crime, continued problems with the 
corrections system in general, and with the seemingly 
intractable problems of mass incarceration, a fractured and 
unrealistic national drug policy, and a lack of protection of 
the individual rights and treatment of the mentally ill.
    George Kelling has noted, ``The jailing and imprisonment of 
the mentally ill is a national disgrace that once again puts 
police in the position of having to do something about a 
problem created by bad 1960s ideology, poor legislation, poor 
social practice, and the failure of the mental health community 
to meet their responsibilities.''
    The Obama administration's new drug czar, Gil Kerlikowske, 
has said that he wants to banish the idea that the U.S. is 
fighting a war on drugs and a shift to a position favoring 
treatment over incarceration to try and reduce illicit drug 
use. I agree with Gil and would go a step further by suggesting 
that strong enforcement and effective prevention and treatment 
programs are not mutually exclusive, they actually go hand in 
hand. It is possible, from a responsible enforcement agenda, 
without driving incarceration rates through the roof.
    This bill recognizes what cops know and what the experience 
of the past 40 years has shown, that we cannot arrest our way 
out of our gang and drug crime problem. We recognize that 
arrest is necessary to put hardened criminals away, however, we 
will fall far short of our overall goal if this is all we do.
    Our problems are systemic, widespread and growing and only 
a singularly focused blue ribbon commission comprised of 
informed practitioners, scholars, policymakers, and civil 
rights activists can adequately address the calculated 
formulation of intervention and prevention strategies. 
America's system of justice is overworked and overcrowded. It 
is under-manned, under-financed, and very often misunderstood.
    It needs more information and more knowledge, it needs more 
technical resources, it needs more coordination among its many 
parts, it needs more public support, it needs the help of 
community programs and institutions dealing with offenders and 
potential offenders. It needs, above all, the willingness to 
reexamine old ways of doing things to reform itself, to 
experiment, to run risks: it needs vision. This was true when 
it was penned 42 years ago by the President's commission, and I 
think we can all agree that it still holds true even more so 
today.
    Thank you, sir.
    Senator Specter. Thank you very much, Chief Bratton.
    Our next witness is Professor Charles J. Ogletree, the 
Jesse Clemenco Professor of Law and Director of the Charles 
Hamilton Houston Institute for Race and Justice at the Harvard 
Law School. Professor Ogletree edited a book released in 
January entitled, When Law Fails: Making Sense of Miscarriages 
of Justice.
    He was recently presented with a 2009 Spirit of Excellence 
Award from the ABA Commission on Racial and Ethnic Diversity, 
and served as Deputy Director of the DC Public Defender system. 
He has a bachelor's and MA in Political Science from Stanford, 
and a law degree from Harvard.
    Welcome, Professor Ogletree. The floor is yours.

STATEMENT OF PROFESSOR CHARLES J. OGLETREE, HARVARD LAW SCHOOL, 
                    CAMBRIDGE, MASSACHUSETTS

    Professor Ogletree. Thank you so much, Senator Specter and 
Senators Durbin and Graham. I'm very happy to be here today to 
speak on behalf of the Charles Hamilton Houston Institute for 
Race and Justice.
    I just want to say a quick paraphrase. It was 42 years ago 
in a room like this that President Lyndon Johnson said about 
Thurgood Marshall, ``It was the right time, the right place, 
the right person, the right thing to do.'' His words 42 years 
ago ring true today because it is the right time to look at the 
criminal justice system and reform it.
    It's the right place--the center of Congress--and the right 
people--this body of Congress can make that happen--and it's 
the right thing to do, because the one thing we've learned in 
the course of examining our criminal justice system over many, 
many decades is that it has been a failure.
    I hope that one major thing we can achieve is to retire the 
phrase ``a war on crime'' and replace it with the phrase 
``being smart on crime'', because we've fought a war and we've 
been unsuccessful. We have too many people in prison, more than 
any other developed nation. Too many of them are black and 
brown and young. We have too much money being spent on 
punishment and not enough on treatment and early intervention.
    Finally, we have not looked at real alternatives to the 
criminal justice system. I prepared an extensive report with 
data and research that I hope will be part of the record that 
will be considered as well. Also, this is a propitious time to 
think about this because you have never had, in my view, so 
many people on the same side on this issue.
    For most of my career, I remember feeling like I'm crying 
out in the wilderness as the only one talking about repair in 
the criminal justice system. As I look at this table today, 
there are people with extensive experience who have come to the 
sensible view that what we are doing now is just not working. 
It's not working in terms of making safety a priority or 
thinking of alternatives so that people won't find themselves 
in the criminal justice system.
    The other important thing is that Senator Durbin mentioned 
a member of the U.S. Supreme Court who he talked with. It's not 
difficult to figure out who that person might be, and that 
person is not just a ``he''. There aren't many ``shes'' there, 
but the reality is, there are a number of people who, every 
day, apply our criminal justice system and it's very difficult.
    Yesterday I saw a dear friend of mine, Paul Freedman, a 
former prosecutor, a tough prosecutor, who is on the Federal 
District Court in Washington, DC, on his own volition, reacting 
to another Federal court judge, decided to impose a one-on-one 
penalty for crack cocaine and powder cocaine, because his point 
was, there's no sensible reason for me to do anything 
differently when I realize that what I've been doing for many 
years is just wrong. That's the judiciary taking it into its 
own hands.
    At the same time, it's very important to think about the 
idea of a commission that has as its goal to figure out a 
system that is smart, creative, progressive, and forward-
looking. The most important thing that I hope you'll hear over 
and over and over again with our testimony today, and I say it 
extensively in my report: it's a cost-effective way of doing 
it. You can be smart on crime and save a lot of money. We see 
that now when we think about the way that we're treating those 
who are mentally ill, treating those who are impoverished and 
under-educated, and they become the fodder for our criminal 
justice system.
    Also, I want to say this in terms of the challenges we face 
today. Bill Bratton is a terrific police officer. I have known 
him from his days in Boston, New York, and Los Angeles. The one 
thing that he's always done is to stand up to fight crime, but 
also insist on fairness. The fairness means, let's come up with 
a policy that makes sense, not just for police officers who 
have to, every day, put on that uniform and defend all of us, 
but who also have the tools to make sure Senator Specter says 
focus on the most serious and important crimes and make sure we 
don't have our jails full of people who are largely non-violent 
drug users, and that money becomes exorbitant.
    The final point I want to make here, and I'll be happy to 
answer questions later on, is that we at the Institute have 
approached this issue with the idea of providing information to 
those who are trying to solve this problem. When we look at one 
particular problem, the problem of gangs, we wrote a report 
more than a year ago called ``No More Children Left Behind 
Bars'', and I'd like to submit that as part of the record.
    That became the impetus for Congressman Bobby Scott's new 
proposed bill, the Youth Promise Act. Our goal was to look at 
whether or not treatment and prevention should be priorities 
rather than simply punishment, and they are. They're cost-
effective. They're effective in many, many ways, and I think 
it's the best way to go. Ultimately, as we know, we've heard it 
said before, in the words of Ohio Governor Ted Strickland. He 
said, ``You don't have to be soft on crime to be smart in 
dealing with criminals.'' If we're driven by being smart and 
creative, we can solve this problem.
    Thank you.
    Senator Specter. Thank you, Professor Ogletree. The report 
you referenced will be made a part of the record, without 
objection.
    [The report appears as a submission for the record.]
    Senator Specter. We'll also move all of the testimony and 
all of the reports into the record, without objection.
    Our next witness is Mr. Brian Walsh, Senior Research 
Fellow, Center for Legal and Judicial Studies of The Heritage 
Foundation, where he works on criminal law, and also on 
national security and civil liberties. He has recently released 
research on the so-called COPS program, Federal hate crimes 
legislation, and public corruption prosecutions. He had been an 
associate with Kirkland & Ellis. He has a bachelor of Science 
in Physics from the University of Colorado and a law degree 
from Regent University School of Law.
    We appreciate your coming in today, Mr. Walsh, and the time 
is yours.

  STATEMENT OF BRIAN W. WALSH, SENIOR LEGAL RESEARCH FELLOW, 
CENTER FOR LEGAL AND JUDICIAL STUDIES, THE HERITAGE FOUNDATION, 
                         WASHINGTON, DC

    Mr. Walsh. Chairman Specter and Ranking Member Graham, I 
appreciate this opportunity to address the National Criminal 
Justice Commission Act. As you said, criminal justice reform is 
a central focus of my research and reform work at The Heritage 
Foundation. I'll just note briefly that my views are my own and 
not those of The Heritage Foundation.
    I commend and am encouraged by Senator Webb's attempts to 
date to overcome the political and ideological boundaries that 
have caused many of the problems in our criminal justice 
systems, and I appreciate the Senator's efforts to reach out 
across those same boundaries, seeking input to help improve and 
shape the Act.
    Over the past few years, we've worked with hundreds of 
individuals and scores of organizations across the political 
spectrum in an attempt to build consensus for principled, 
nonpartisan criminal justice reform. My colleagues, allies and 
I have gathered substantial evidence that the criminal justice 
system is in great need of principled reform, particularly at 
the Federal level, and have come to a consensus that this 
reform should not be driven by partisan politics. We've heard a 
little bit already about the problem of being considered ``soft 
on crime'' and how difficult it is for legislative bodies to go 
against that stream.
    And while I think improvements are needed to S. 714 to make 
it sufficiently principled and nonpartisan to garner widespread 
support, it does include positive provisions. In particular, 
the commission should undertake to identify just, effective 
alternatives to incarceration for some categories of first-time 
non-violent offenders, explore and report on the successes and 
failures that the States have encountered with drug courts for 
non-violent offenders charged with possessions of small amounts 
of drugs, and study effective programs for easing offenders' 
entry back into society after they are released from 
incarceration.
    For the remainder of my time I will focus on the needed 
improvements to the bill. The goal of each improvement and each 
recommendation is to help ensure that the commission would 
investigate and report in a principled and nonpartisan manner, 
and that its findings and recommendations would be considered 
useful and authoritative by Americans across political and 
ideological boundaries.
    First, the composition of the commission should be modified 
to ensure that the members of the commission adequately 
represent: 1) the diversity of views, backgrounds, and 
expertise needed to address all of the criminal justice issues 
covered by the commission; 2) the interests of the 50 States in 
protecting their sovereignty over criminal justice operations, 
a core State responsibility; and 3) the criminal justice 
interests and expertise of the executive branch. I've made 
further recommendations about that in my written statement.
    Second, the Act includes unstated assumptions that are not 
necessarily well-founded. One such assumption is that 
incarceration rates need to decrease across the board. Section 
6 of the Act would direct the commission to make 
recommendations to reduce the overall incarceration rate.
    While it may be true that some prison sentences are longer 
than necessary to fulfill the needs of justice, a directive to 
decrease the overall incarceration rate strongly suggests that 
all prison sentences are too long. This is simply not borne out 
by the best available evidence and does not take into account 
the recidivism problem, particularly with violent offenders, 
and the need to make sure that those who have committed violent 
crimes and are at high risk to recidivate are actually kept 
incarcerated where they are incapacitated from committing 
further crimes.
    I have made similar recommendations about the drug policy--
that the recent public discourse on national drug policy has 
been dominated by those who are broadly opposed to enforcement 
and often favor drug decriminalization. The Act itself appears 
to be premised on assumptions about drug enforcement policy 
that are not entirely well founded.
    Nothing in the Act mentions, for example, the successes the 
States and the Federal Government have had in the fight against 
drug abuse, and my written statement briefly addresses the 
destructive effects of family drug abuse on children and the 
correlation between the criminal history of incarcerated 
offenders and their own history of drug abuse and dependence.
    Although such facts do not justify all current drug policy, 
this information about the national fight against drug abuse 
should be granted its full weight by the commission in order 
for its drug policy recommendations to be granted the type of 
weight and authority that we would hope that they would 
warrant.
    Finally, I just want to address that my greatest concern 
with the Act as currently written is that it does not guide the 
commission to address the many-faceted problems of over-
criminalization, which include federalizing crime that should 
remain under the jurisdiction of State and local law 
enforcement, criminalizing conduct that no one would know is 
criminal unless they both scoured and understood tens of 
thousands of pages of statutory and regulatory law, and 
eliminating the intrinsic safeguard requiring proof beyond a 
reasonable doubt of criminal intent, which formerly protected 
from criminal punishment Americans who never intended to 
violate the law.
    Working with the coalition that crosses political and 
ideological spectrum, we came to substantial consensus before 
the November elections about a proposal for both hearings and 
reform proposals in the House, in particular, and we hope that 
we will continue to be able to address those things in a 
principled, non-partisan manner.
    The overall goal, again, of all of these recommendations is 
to make sure that the commission's work is widely respected and 
understood to be something that is not favoring a particular 
group or class of offenders, but all those Americans who could 
be subjected, and have been subjected, to criminal penalties. 
Our organization, working in concert with others, have 
catalogued a number of examples and stories of those who acted 
in ways that none of us would necessarily perceive as being 
criminal, and yet found themselves in Federal prison or State 
prison for substantial prison sentences.
    With that, I look forward to your questions, and thank you 
again.
    Senator Specter. Thank you, Mr. Walsh.
    Our final witness is Mr. Pat Nolan, vice president of the 
Prison Fellowship, who comes to the witness table with a really 
extraordinary record. He heads the Justice Fellowship, the wing 
of Prison Fellowship that seeks to reform the criminal justice 
system based on the Bible's principles of restorative justice. 
He served in the California State Assembly for 15 years and was 
the Republican leader for 4 years. He began his work on 
criminal justice reform, as noted in his volunteered 
information in his resume, after serving 29 months in Federal 
custody for accepting campaign contributions that turned out to 
be part of an FBI sting.
    He authored a book released by Prison Fellowship on the 
role of the church entitled, When Prisoners Return. He has a 
bachelor's degree in Political Science and a law degree from 
the University of Southern California.
    Thank you for coming in, Mr. Nolan. You present an 
extraordinary diversity of experience for the benefit of this 
Subcommittee. You may proceed.

  STATEMENT OF PAT NOLAN, VICE PRESIDENT, PRISON FELLOWSHIP, 
                      LANSDOWNE, VIRGINIA

    Mr. Nolan. It's an honor to be included on this panel and 
to have a chance to address you. We strongly support Senator 
Webb's proposal for a National Commission on Criminal Justice. 
As you pointed out, I was very active on criminal issues in the 
California legislature, especially on victims' rights. I was an 
original sponsor of the Victim's Bill of Rights and received 
the Victim's Advocate Award from Parents of Murdered Children. 
But as you pointed out, my life took an unexpected turn, and 
after I was convicted of racketeering for a campaign 
contribution, I went to Federal prison and served in Federal 
custody for 29 months.
    What I saw inside prison really troubled me. Little was 
being done to prepare the inmates for their return to society, 
and the skills that the inmates learned to survive inside 
prison made them more dangerous after they were released. My 
role at Prison Fellowship is to work with government officials 
to try to fix our broken criminal justice system. It's taken me 
to 35 States, where I have worked with Governors, attorneys 
general, secretaries and directors of corrections, and 
legislators to try to change the system.
    I serve on the National Prison Rape Elimination Commission 
and I was a member of the Commission on Safety and Abuse in 
America's Prisons. I was appointed by Governor Schwarzenegger 
to his strike team on rehabilitation, and I currently serve on 
Virginia's Task Force on Alternatives to Incarceration.
    I tell you all this because this work has given me a chance 
to see up close what is going on in our prisons. Frankly, it's 
not working. They're in crisis. First, I'd like to make three 
very important points. The first, is that our justice system 
needs to keep us safe. That's the priority, and that will 
result in fewer victims.
    Second, we need prisons. There are some people that are so 
dangerous, they need to be incapacitated and separated from 
society, some of them for the rest of their lives.
    The third, is that the crisis in prisons wasn't created by 
corrections officials. There are dedicated corrections officers 
and law enforcement that are merely trying to implement the 
policies that they did not make. The report on the Commission 
on Safety and Abuse in America's Prisons put it well: many of 
the biggest so-called prison problems are created outside the 
gates of the correctional facility.
    Congress and State legislatures have passed laws that 
dramatically increase prisoner populations without providing 
the funding, or even the encouragement, to confine individuals 
in safe and productive environments where they can be 
appropriately punished, and for the vast majority who are 
released, emerge better citizens than when they entered.
    Our current policies have resulted in over-crowded prisons 
where inmates are exposed to the horrors of violence, including 
rape, infectious disease, separation from their family and 
friends, and despair. Most offenders are idle in prison, 
warehoused with little preparation to make better choices when 
they return to the free world. When they leave prison, they'll 
have great difficulty getting a job and it's very likely that 
the first incarceration won't be their last.
    The Pugh Center on the States has chronicled the magnitude 
of the prison system and the challenges it faces: 2.3 million 
Americans behind bars as this very moment, 1 out of every 100 
adult Americans. Including those that are under correctional 
supervision, another 5 million, that comes to 1 in every 31 
adults is either in prison or being supervised on release. The 
cost to taxpayers is a whopping $68 billion.
    On average, corrections are eating up 1 out of every 15 
discretionary dollars at the States and the spending on 
corrections last year was the fastest-growing item in State 
budgets. We just can't sustain this continued growth of 
prisons. Corrections budgets are literally eating up State 
budgets, siphoning off money that could go for roads, schools, 
and hospitals.
    But the dilemma we face is, how do we spend less on 
corrections while keeping our people safe? My work in the 
States has shown me that there are several that are doing a 
terrific job of that and that Senator Webb's legislation could 
be helpful to the others in doing the same thing.
    Most social scientists agree that the drop in crime, some 
allege that it's only due to the mass incarceration. In 
reality, the experts agree about a quarter of it is, the rest 
is a variety of factors, many of which Chief Bratton has 
already talked about.
    As I said before, we need prisons, but not for everyone 
that commits a crime. Prisons are meant for people we are 
afraid of, but we fill them with people we're just mad at. 
Check kiters can be safely punished in the community while 
holding down a real job, repaying their victims, supporting 
their families, and paying taxes. A drug addict who supports 
his habit with petty offenses needs to have his addiction 
treated. Sending him to prison, where less than 20 percent of 
the addicts get any treatment, does not change the inmate. When 
he's released, he'll still be an addict.
    Our object should be to get him off drugs. Spending $30,000 
a year to hold him in prison without any drug treatment is just 
plain wasteful. We can learn a lot from New York City under the 
strong leadership of Chief Bratton. Most people are aware that 
the crime rate dropped dramatically in New York, far more than 
most other large cities.
    For instance, the murders in New York dropped from 2,600 in 
1990 to 800 in 2007. From 2,600 to 800. That's an astounding 
fact. Also, the one crime statistic that can't be fudged are 
bodies in the morgue. That was a real drop there.
    What is not well known is that drop in crime occurred while 
New York was cutting its prison population, making better 
decisions about who they put in prison and for how long. They 
looked at the tipping point, where sentences do not buy any 
more public safety. That is really our object: how do we get 
the most public safety for the dollars that we have? Sadly, I 
don't think we're getting the bang for our buck from our 
corrections spending.
    Several States have succeeded in separating the dangerous 
from low-risk offenders, and the results are impressive. 
They've shown it's possible to cut the cost of prisons while 
keeping the public safe. Last year, Texas--not exactly a soft-
on-crime State--made sweeping reforms in their prison system. 
They reserved expensive prison beds for the dangerous offenders 
and treat the rest in community facilities, and they've taken 
the plans for building more prisons off the table, saving 
hundreds of millions.
    Senator Specter. Mr. Nolan, how much more time would you 
like?
    Mr. Nolan. Okay. I have three quick things that I think are 
really important that the commission take up. The first, is to 
treat the non-dangerous mentally ill in community treatments. 
The police don't want to arrest these folks. They do what they 
call ``mercy'' bookings because they're on the street, but 
there are no beds to put them in. It's so much cheaper to keep 
them in a community treatment facility. It's about $29 a day 
versus $65 or so that it costs to keep them in prison. It also 
makes management of prisons impossible, or jails. How does a 
mentally ill person follow the orders.
    The second thing is----
    Senator Specter. Mr. Nolan, how much more time would you 
like?
    Mr. Nolan. It'll be like 2 minutes.
    Senator Specter. OK.
    Mr. Nolan. The second thing is, have swift and certain 
sanctions for probation and parole violations. Now a vast 
number of prisoners going to prison are for parole violations, 
some of them serious, but a lot of them technical violations--
they missed an appointment with their probation officer, they 
failed to report certain income, or they had a dirty UA. 
Sending them back to prison at a cost of $30,000 a year isn't 
the way to handle it.
    The Pugh Center has studied a program in Hawaii by former 
Federal prosecutor, now a judge, Stephen Ohm that brings them 
in. If they have a dirty UA, they go straight to jail, but not 
for years, for 24 hours, to hit them up the side of the head. 
Some of these are knuckleheads that just can't follow the 
rules, and this is a way to say we're serious about it: get 
back in drug treatment, get back meeting your parole officer. 
The results have been dramatic in that they have 85 percent 
fewer missed appointments and 91 percent fewer positive drug 
tests. So, it's working and it's saving the taxpayers a bundle.
    The third thing is, match the parole supervision to the 
risk. Now a lot of States have every parolee being supervised. 
Instead, it should be focused on those that are a danger.
    The last is a really ridiculous policy that limits mentors 
that work with prisoners inside prisons from staying in touch 
with them when they get out. Most of the States have this 
policy and it interrupts the very good relationships of the 
volunteers that are helping these inmates change their lives, 
it cuts them off from the very people that could protect them.
    It's just astounding that the States would have that. These 
are the type of issues that the commission can address. The 
States desperately need the help looking at these things. 
They're so busy coping with the number of new prisoners that 
come in from these long sentences and stronger crimes so they 
can't look at these themselves. The commission can do that.
    I thank you so much, Mr. Chairman, and Senator Webb and the 
other co-sponsors, for carrying the bill.
    Senator Specter. Thank you, Mr. Nolan.
    Chief Bratton, you commented about preventing crime and you 
have the unusual system of CompStat. I think this would be a 
good forum to explain that. Other chiefs may be listening to 
what we say here. Exactly how does it work and describe its 
success rate.
    Chief Bratton. The success in New York, which is fairly 
well known, which is now continuing in Los Angeles with many 
fewer police resources, is based on a system of timely, 
accurate intelligence, the idea that gathering up your crime 
information, both serious as well as minor--broken windows--
every day, analyzing it, and as quickly as possible putting 
your police officers, whether in New York City with a lot of 
cops where I could cover all my dots all the time, or in Los 
Angeles I have to prioritize, where do I put my very small 
number of cops on what dots. The very act of staying on top of 
your crime information really allows you to rapidly respond to 
emerging patterns and trends and stop them at a second or third 
event rather than the 15th or 20th.
    Then what we have also focused on is relentless follow-up, 
the idea that the Federal Government in particular, and to a 
lesser extent State and cities, are like ``one-eyed Cyclops'', 
to quote my friend Dean Esserman from Providence, that we look 
at an issue, we think we solve it, and we move on, and like the 
carousel, we never come back to it again.
    In policing, we stay on crime all the time. It never goes 
away, so we never go away. So the CompStat model is very 
simplistic, if you will, but it works. But what fuels is it the 
idea, better to prevent the crime than expend resources, not 
just police resources, but societal resources. So the 
statistics that the gentleman to my left referenced, in New 
York City what was not widely known, was during the Guiliani 
time, my time as his commissioner, we purposely increased 
incarceration rates for a period of time to get the attention 
of the public and the criminal element, both serious and minor, 
and the prison population rose from 18,000 to 22,000, the 
capacity of Ryker's Island.
    Right now, Ryker's Island houses around 11,000 inmates. 
There's almost as many corrections officers on Ryker's Island 
as there are prisoners. What happened? Police controlled 
behavior, both quality of life, broken windows, as well as more 
serious crime, CompStat, to such an extent we changed behavior. 
So the failed philosophy of the last Presidential crime 
commission that pointed police in the wrong direction for 30 
years was that you, the police, society will figure out what to 
do about the causes of crime, you go work on the results of it. 
Well, we did that for 30 years and we saw the results: crime 
went through the roof, peaking in 1990 with huge increases, 
particularly fueled by crack.
    The good news was that in the 1980s and the 1990s, American 
police, working with political leadership, yourself included, 
we got the crime bill of the 1990s, the first comprehensive 
omnibus crime bill, and we changed America. Violent crime went 
down 40 percent, overall crime 30 percent, and but for 9/11, 
which sucked up so many resources that had been focused on 
traditional crime, we would have kept it going down at an even 
more dramatic rate.
    So the idea now going forward to the new commission is that 
certainly incarceration is a critical area, but if that's all 
you focus on, if you don't focus on police practices, if you 
don't focus on probation/parole practices, you are effectively 
going to end up 30 years from now where we were in the 1990s as 
a result of what occurred in the 1960s.
    Senator Specter. Do you think the 1994 crime bill was 
effective?
    Chief Bratton. I'm sorry, sir?
    Senator Specter. Do you think the Federal legislation in 
1994, the crime bill, was effective?
    Chief Bratton. It was effective in some respects. I'm an 
example of that. Most of American police leadership today, my 
predecessor and my two successors in the Boston Police 
Department, for example, we all received educations in the 
1970s as young police officers and sergeants entering the 
police business where we were exposed by going to college in 
the daytime, and at nighttime working as police officers. We 
didn't get wrapped up in the blue cocoon of that era, which was 
all about ``hook'em and book'em''. We understood that--the 
first book I ever read for a promotional exam was Herman 
Goldstein's Policing a Free Society. We ended up more 
progressive.
    The leadership of American policing today, which created 
CompStat, quality of life policing, problem-solving policing, 
focus on prevention, and within five years, sir, we'll be into 
predictive policing. The next era is, we will be able to 
predict with great certainty where crime is going to occur and 
be more focused on preventing it. It's coming about because the 
focus back then had some good results. It provided leadership 
within policing that benefited the policing system and allows 
us to also appreciate that it's not all about us, it's about 
what part we play in the larger system. We are one element--
only one element--but I would argue one of the most effective 
if we get it right.
    Senator Specter. Professor Ogletree, you emphasized the 
treatment aspect. We call it a correctional system, but we all 
know it doesn't correct. The tremendous cost of recidivism. One 
of the factors which has been so difficult is to get sufficient 
public support to make the system correctional on the steps of 
detoxication or literacy training or job training. What 
suggestion would you make to how you get sufficient public 
support to get the funding to do it?
    Professor Ogletree. Senator Specter, I think this is an 
idea where the public would actually support the idea of what I 
would call a sane criminal justice policy if the public 
understood something as simple as the collateral consequences 
of punishment. You don't only go to jail when you commit a 
crime in most cases, put aside minor crimes, but also you lose 
your right to vote, you lose your right to hold a license, you 
can't get a job, you can't travel, and you can't live in 
certain communities. Therefore, the only thing you do is return 
to crime, so the community is punished a second time because we 
haven't thought carefully about what to do with this person 
once they've served their time.
    A couple of sensible things are going on with the mayor I 
know in Oakland, a former member of the Congress, Ron Dellums, 
and with another mayor, I know in Newark, Corey Booker. Both of 
them are making contact with corrections officials before 
people are released to get a sense of where they're going to 
go, what treatment they need. It's a form of the second chance, 
but the idea is that I don't want my community impacted by 
someone being released today whom I know can't get a job, 
doesn't have a license, doesn't have a place to live, and 
they'll be committing crimes within 48 to 72 hours. So reaching 
those people before they're released and working with 
corrections is one thing.
    The second thing is to think about our policies that 
disenfranchise people in terms of working and to let the public 
know that we're not saying that we're going to give the best 
and most expensive jobs, the most revenue generating jobs to 
criminals. That's not the right idea. But the idea now is that 
someone who has a record can't get a job cutting grass or 
painting a fence. Okay. Not a child care center, not in certain 
sensitive areas, not in national security, fine. But the kinds 
of work that they could do where they would be taxpaying, wage-
earning citizens is important.
    I recall the line from Chief Justice Earl Warren's position 
on Brown. Brown had a lot of interesting things to say, but one 
thing said was that the most important thing was education. He 
said, ``The very foundation of education is that it creates 
citizenship.'' People consider themselves citizens, which makes 
a big difference.
    What I would suggest that we would have to do, and what 
this commission could do very effectively, is to figure out a 
way that people--like the old system, you have both a time of 
punishment, but also a time of treatment and release, and that 
we would make sure that we have a policy, a sane policy which 
enforces that.
    Senator Specter. Professor Ogletree, in terms of attacking 
the underlying causes of crime, we talk about education, 
rehabilitation, realistic rehabilitation, job training, during 
your tenure in this field do you think we made any progress in 
the last three decades on the underlying causes of crime?
    Professor Ogletree. We have. To be fair, we have, because 
what we've done is to get people, on their own initiative with 
their own resources, to come up with creative alternatives for 
education. If you look at what is being done right in New York 
with the Harlem Enterprise Zone, you will see that this has 
taken a community that would otherwise be viewed as crime, 
drugs, violence, but in fact Jeffrey has taken this community 
and said, you know, this is our community. We have to clean it 
up; we have to respect it. So people from parents to children 
are invested in it in some way that makes an enormous amount of 
difference.
    At the same time, James Bell in Oakland has the Byrnes 
Institute which works with young people to make sure that we're 
very careful about things like expulsion and suspension, 
because when kids are out of school, all they do is commit 
crime. All of our laws that talk about curfews at 9, the crime 
is happening, as Chief Bratton will tell you, from 3 to 6, 
these latchkey kids who don't have anyone supervising them.
    The third example that's a pretty significant one is 
resource-serious, but Chief Bratton will tell you, in Boston 
what we had was a voluntary effort of clergy, the Ten Point 
Coalition, the Black Minister Alliance, not meeting kids at the 
church, but going out on the streets of Boston in Dorchester, 
Mattapan, and Roxbury at midnight and talking to them, and 
taking them to have some coffee and so they had something to 
do. What I'm saying is that the community can address crime. It 
shouldn't be a burden just on police, just on the criminal 
justice system, but we have to use the resources that are 
already there.
    If we can replicate examples of the Ten Point Coalition and 
the Black Minister Alliance in communities across this Nation, 
ministers, retired teachers, senior citizens, all of us have an 
interest in crime prevention, and we do that by telling 
children we love them, they do have some future, we can help 
them, and it doesn't cost the government money.
    The idea is to make the community responsible for its own, 
but do that in a sense that gives the community some power to 
make sure that children have some alternatives other than the 
idea that all they can do is hang out in the streets because 
they can't get a job, they can't go to school, and they don't 
have many ideas of success within their homes.
    Senator Specter. How important do you think mentoring is on 
that kind of community support?
    Professor Ogletree. It's critical. It's absolutely 
essential. You know that President Barack Obama and his wife 
Michelle Obama were my students, and I think about both of 
them. People see them and what they've done today, but Barack 
Obama is a guy whose father was largely absent from his life. 
His mother was pregnant as a teenager. He was moved around, not 
the country, but the world as a young kid.
    Yet, he had mentors who kept him in check, who made him get 
away from bad influences, and led him to see that his life 
could be different. The same thing with Michelle: a father who 
was a working-class guy who had multiple sclerosis, but he took 
care of his children. I think mentoring is perhaps the most 
significant single factor.
    And here is the point that we forget about: it's the 
problem that we don't appreciate the fact that mentoring has 
nothing to do with race and gender, that if we think, because 
I'm white I can't mentor a black kid from Harlem, or I can't 
mentor an Hispanic kid from Houston, we're wrong. If we don't 
see this as our problem and our children and our community, 
that's the problem.
    Mentoring should be a global effort by everyone that 
everyone can contribute, and that makes an enormous amount of 
difference for these children to see somebody who loves them, 
who has spent some time with them, and it's cost-effective 
because it lets people, like senior citizens, let kids know 
what it means to read a book, to think about a job, to be self-
sufficient.
    Senator Specter. Senator Klobuchar?
    Senator Klobuchar. Thank you very much, Mr. Chairman. Thank 
you to our witnesses. Before I had this job I spent 8 years as 
a prosecutor in Hennapin County, heading up that office. I saw 
firsthand how the criminal justice system can work well, and 
then some of the issues that we have with it as well.
    I will tell you that my experience--Minnesota has a lower 
incarceration rate than most States: we use probation more, we 
hang sentences over people's heads, we have a functioning drug 
court that has been improved and has some merit to it, I would 
say, but we also have focused in recent years strongly on tough 
sentences against people, felons who commit gun crimes and 
things like that.
    So I will say that despite many people who completely decry 
our criminal justice system, I think there have been some 
improvements in recent years. I can tell you that I come from a 
city that was once called ``Murderopolis'' in the mid-1980s, 
and because of some tougher sentences, but also some more work 
on drug rehabilitation in our country, we actually saw vast 
improvements, a very strong decrease in the amount of murders, 
so no one is calling us ``Murderopolis'' anymore.
    So I have interest in trying to make improvements, but also 
wanting to make sure that while we fix what is broken, that 
we're not going to hurt the good that has come out of some of 
the tougher sentences for certain crimes as we go ahead.
    I had questions, first of all, for you, Mr. Bratton. I 
think we met once at a prosecutor's conference where I heard 
you speak back then many years ago. But I know you're a fan of 
community policing. I also think we could build on that with 
community prosecution. We did some of that in our county that 
was very successful. I do want to talk about whether you think 
this commission should also be looking into community policing.
    Chief Bratton. Community policing is, in fact, being quite 
frank with you, what saved America in the 1990s. The Federal 
Government entering into the partnership with State and local 
agencies for the first time in an effective way, the omnibus 
crime bill, some meaningful gun regulation, but its support of 
the concept of community policing, the emphasis on partnership, 
community, criminal justice system partnership within the 
system, prosecutors working with police, working with 
probation/parole, judges, et cetera, and the return to the 
focus on prevention of crime. What we focused on in the 1970s 
and 1980s was, as I was talking about earlier, was the 
response: response time, arrest rates, conviction rates, all 
important, but that's part of it.
    The totality of it is, how do we prevent it in the first 
place? How do we prevent people from becoming drug addicts? How 
do we prevent people from being incarcerated? In the 1990s, we 
learned a lot; the New York experience, CompStat, was a tool to 
facilitate community policing. We resourced appropriately on 
the police side of the house in that we had a lot of police, 
100,000 more than we have now.
    We also built a lot more prisons, but in the building of 
the prisons, when we filled them up as the police put them 
there, we in effect compounded the problem rather than, as 
policing was doing, reducing the problem in terms of the 
reduction of violence. There are too many people in jail that 
don't need to be there, many who could be in treatment centers, 
certainly the homeless, or what have come to be known as the 
homeless, the majority of whom are in fact having mental 
issues.
    That half-million population in prison should not be there. 
They're only there because there's no place else to house them. 
Those half million in the 1960s and 1970s were in other forms 
of prison: they call them mental institutions. We literally 
dumped them from one place into another, and along the way a 
lot of them became the homeless populations we see on the 
streets.
    So, effectively, your point that we not throw everything 
out, but examine what has been working, what is continuing to 
work, and what can we add to it, and let's get rid of what is 
not. There's a lot that is not working.
    Senator Klobuchar. OK.
    Mr. Nolan, I appreciate your work. For many years I 
visited--I think 10 years--a woman who was incarcerated in 
Minnesota before I was a chief prosecutor. It got a little more 
difficult then. But she had killed her pimp, and I got a sense 
of the population. I went there about once a month and saw her 
and got to know some of the inmates in the facility. I will say 
that one of the things that I noticed, there were some people 
there with severe mental illness.
    One of the things that you've suggested that Mr. Bratton 
just mentioned was to provide funding for providing more 
community health facilities where non-dangerous mentally ill 
people--I know we worked with the Mental Health Court for a 
while when I was a prosecutor to take some of the urinating in 
public cases, some of the cases that were non-violent, and 
tried to make sure that these people were taking medication, 
and working with them, and we had some success with that.
    Could you talk a little bit about this idea of having a 
place that is different from the prison for people who are 
mentally ill to be incarcerated or to get treatment?
    Mr. Nolan. Yes. First of all, it's wonderful you've gone 
and visited the woman in prison. As I said, it's a lonely time, 
and anybody that wants to turn their life around, having 
somebody that comes and shows love for them and cares about 
them, gives them hope. So, thank you.
    The mentally ill population, as Chief Bratton said, we 
closed our mental hospitals, but didn't build the community 
facilities that were promised to take care of them, so they 
ended up on the street and with the mercy bookings of the 
police, they ended up in jail. The idea is to get them in a 
stable environment. Ofttimes they're off their medications. If 
they're on their medications, getting three squares a day, 
they're totally functioning.
    Senator Klobuchar. Exactly.
    Mr. Nolan. They're not a danger to anybody. LAPD and LASO, 
the sheriff's office, have a great program, crisis intervention 
teams that are trained, specially trained officers that go out 
when a mentally ill person is found in front of Denny's 
worshipping the news rack, or whatever, that's the public 
nuisance. What it does, is free up the patrol officer to 
continue doing his work. These are specially trained and they 
try to defuse the situation. Then they've worked out contracts 
with local mental health facilities. They get first call on the 
beds. That's what the need is. They need a bed that can give 
them the acute care that they need, stabilize them, and then 
they can go to a regular mental health facility.
    The problem is, they don't have enough money. I don't know 
about LAPD, but LASO has one shift, 8 hours out of the 24, and 
they've had to choose the times to have that special team just 
during 8 hours. The problem is, people don't act out during set 
times of the day. If they had 24-hour coverage, it would be 
much better.
    The second thing, is that they have a bed to put them. I'll 
give you a quick story of an incident that shows how absurd 
this situation is. A deputy, before this program, arrested a 
mentally ill person. Again, they were causing a disturbance. He 
took them to the county hospital.
    The L.A. county hospital refused to accept him and said, 
take him to jail. The deputy said, this man is not a criminal, 
he's sick. He belongs here. The hospital said, get off the 
property, we're going to arrest you for trespass if you stay 
here, and tried to arrest the deputy for trying to get the guy 
the treatment he needed. It became a big--the watch commander 
of the sheriffs and the commander at the hospital got involved 
and they defused the situation, but that's how absurd the 
situation was. You had a deputy that knew this man didn't 
belong in jail.
    Also, the mentally ill are horribly abused in prison. 
They're taken advantage of, and then sometimes they also act 
out and abuse people. The last thing is, it just makes 
management impossible. Jails and prisons run on order, 
following set patterns. That's how they control the population. 
By definition, a mentally ill person can't follow the rules so 
they end up in detention, solitary confinement, which 
exacerbates their mental illness.
    Senator Klobuchar. Are you familiar with the Mental Illness 
Court that they had in Milwaukee where they actually have----
    Mr. Nolan. Yes.
    Senator Klobuchar. They have a place that people go and 
they take their medication, the sentence is hung over their 
heads.
    Mr. Nolan. Right.
    Senator Klobuchar. I think it was an interesting model to 
look at. So, again, for lower-level offenders.
    Mr. Nolan. That's exactly it. There are some mentally ill 
that need to be--Charlie Manson needs to be locked up.
    Senator Klobuchar. Thank you.
    Mr. Nolan. But a lot of folks don't.
    Senator Klobuchar. All right. I'll come back.
    Senator Specter. Go ahead.
    Senator Klobuchar. You want me to keep----
    Senator Specter. Yes.
    Senator Klobuchar. Okay. All right.
    The other thing, Mr. Walsh, I want to thank you also for 
being here. I appreciated your testimony where--I don't know if 
you said it today, but in the written testimony where you 
talked about how State and local governments are responsible 
for 96 percent of those individuals that are either 
incarcerated or on parole.
    As we look at this commission and the setting up of the 
commission, I'm very concerned that the people that are paying 
for 96 percent of this have a voice, because I can tell you 
what my impression was, being on the front line, managing an 
office of 400 people, is that the people in Washington love to 
put mandates down on us and put it in their brochures, and then 
we got stuck with all the work without any funding.
    So could you talk a little bit about helping local 
governments have a voice with this commission?
    Mr. Walsh. Yes. Thank you. And thank you for your interest 
in this, too. You know, the principle which I mention in my 
written statement is often called the Principle of 
Subsidiarity, which is that those government officials who are 
closest to the affected populations are typically in the best 
position, like you were as a prosecutor in Hennapin County, to 
know what the needs and the priorities should be for that 
particular community.
    So often when drug policy is made or other policy is made 
at the Washington level, it doesn't necessarily reflect the 
values, the interests, and the priorities of the local 
community. So who those persons are who are ending up being 
incarcerated--or mental health, perhaps, issues that are being 
dealt with--in the population in that local community is being 
dictated by a very broad, and not necessarily very nuanced, 
policy that's being made in Washington.
    So those who are on the ground, as I've learned in other 
experiences that I had, including doing Katrina relief where I 
was involved in getting the private sector on the ground very 
quickly right after the hurricanes hit, one of the things you 
learn is that the government officials who are closest to the 
situation are the ones who understand what is happening on the 
ground. They recognize it. It's very difficult for anyone in 
Washington to really see those nuances.
    So from that standpoint, I think one of the things that the 
commission really needs is to have a robust representation from 
the States. It's good that the commission right now has two 
members who would be appointed, one by the chairman of the 
Democratic Governors Association, the other by the chairman of 
the Republican Governors Association. But it would be helpful 
to have language in the statute which specifically states that 
those interests need to be taken into account. And whether 
those members are appointed by Congress or, as I also 
recommend, that some of them be appointed by the executive 
branch, that those be people who are staunch proponents of the 
State and local law enforcement officials who right now 
comprise 91 percent of all of the law enforcement officials 
across the Nation.
    So those are some of the ways that I think we can do it, 
but part of it is just elevating the discourse and making sure 
that we recognize that the States really do have the huge 
burden. One percent of the arrests, I think, in 2003 were made 
by Federal officials; 99 percent of the arrests were made by 
State and local officials. That's something that gets lost in 
the national publications, the national media.
    It's important that we continue to bring that issue to the 
fore because otherwise we end up with some of the guidance that 
we were given--even, I hate to say it, but through the 
Sentencing Reform Act--from the Federal Government, which 
suggests that this is the best way, necessarily, to do 
sentencing.
    A lot of the States will follow that in, sometimes, lock-
step or rote, especially if there's money attached to it. So 
from that standpoint I think it makes a lot of sense to get the 
communities that Professor Ogletree was talking about well 
engaged and to have them well-represented, with their voices 
from the very beginning of the process--community leaders, 
ministers, others--talking about what they're really seeing and 
how to make sure that what we plan actually works.
    Senator Klobuchar. Right.
    Then the other thing you commented about was just the 
sentencing, and how there are sentences that we should look at 
changing, and we had a good hearing here on the crack/powder 
disparity. I support changing that, and I think a number of the 
other Senators do as well. But I am concerned--I will be honest 
with this--I saw in our State some major improvements when it 
came to, especially, some of the Federal gun laws that went on 
the books that allowed for some of the worst criminals with 
guns, that allowed that to be up to the Federal level.
    I think that was very helpful in many cases for us, even 
when they didn't go to the Federal level, the fact that those 
sentences were out there. It gave us some leverage to enforce 
the laws on the State basis. I think some of the changes in 
sexual assault law have been helpful, I think some of the 
changes in domestic abuse laws and those longer sentences have 
been helpful.
    So some of the rhetoric surrounding this bill, that the 
entire system is broken, when in fact we have made strides in 
many areas, does bother me. It is not to say that we don't need 
changes to the criminal laws, we do. I come at it with these 8 
years of experience of seeing the good side of using 
rehabilitation and having programs that work, but I also come 
at it as someone that has seen also the benefits of having some 
of the strength of a strong criminal justice system with those 
sticks out there.
    Do you want to comment briefly on that?
    Mr. Walsh. Yes, I would. I think you're right. In gun crime 
in particular, there's an instance where--I hate to say it 
again--there's a tenuous connection to interstate commerce in 
many instances for those Federal crimes. That doesn't mean that 
the States can't put in place the same type of laws, because 
they have wide latitude to criminalize gun possession in 
similar circumstances.
    Now, the issue becomes, is there funding available and is 
there a mandate available? So one of the ways that we--and I 
think part of what the commission needs to do, is to recognize 
that the average person has gotten to the place where they do 
begin to look to Washington for all the solutions and to 
recognize that the State capital is often the place where those 
crimes can be put into place, those offenses can be put into 
place, and then also look at how is money being allocated?
    Some of the cost-savings measures that have been mentioned 
here could be reallocated for, like, gun enforcement, as an 
example. The benefit being that there is, again, a more nuanced 
approach and it's more tuned to the gun offenders in that 
particular State, that locality, whatever it is, and is not 
necessarily as harsh as some of the cases I saw when I clerked, 
for example, in the Federal court system, where basically an 
offender had a single shell casing or a few shell casings in a 
residence where he was staying, not even his shell casing. It 
was undisputed. But he either knew that they were there or had 
constructive possession of them and ended up spending time in 
prison because that supposedly was sufficient to show that he 
had possession.
    So there's an instance where, at the State level, those 
types of stories, I think, have a greater impact on the 
electorate and they can begin to re-tune the policy. But I 
think mental illness is an other example. It is good for 
Washington to lead in terms of understanding what best 
practices are, doing the thorough investigations, and then 
bringing everyone to the table to begin to discuss it very 
openly.
    Senator Klobuchar. Yes. And I always just think about the 
effects that these changes will have, and I think there are 
some very good things we can do here. But I always remember, 
it's not going to be on the gated communities, it's not going 
to be where a lot of my colleagues live, it's going to be, the 
effects of these policies, good and bad, in the criminal 
justice system affect people in the Falwell neighborhood in 
north Minneapolis where they depend on us to make sure we're 
making the right decisions here.
    I just want to end, because the Chairman has been so nice 
to let me go on here, with Professor Ogletree. Thank you very 
much for your work. I was very interested in your focus on 
patrol officers--we call them probation in our State--better 
monitoring using those compliance tools. We found that to be 
tremendously effective and a good use of resources, and they 
sometimes get left behind where someone, as long as they're 
monitored, it has been a big help to know and to use some of 
that sentence hanging over their head and to have probation 
officers, especially if they're willing to be out in the 
community.
    Do you want to expand on that some more?
    Professor Ogletree. I agree. When I was practicing here, 
one of the great things was the great Probation and Parole 
Division, not with guns, but with the idea to help people get 
the jobs, make sure they kept their appointments, make sure 
they treated their families respectful, and it created a real 
partnership because you were in the halfway house. Right? You 
were out of jail, but if you didn't follow my rules strictly 
you would go back to jail. That was an important lever over 
their head.
    I think we need a lot of those, not just the idea of 
probation and parole officers and other social workers and 
people in the community, but as I said earlier, we need the 
community to be invested in some reasonable way.
    Here's the one thing that I would slightly disagree with on 
both the inferences, yours and Mr. Walsh's. Here's the problem. 
Everybody has their own idea of how much to add to punishment, 
so you may want to do it on guns, someone else on sex offense, 
someone else on the elderly. What happens is, you get a 24-
year-old who gets a sentence, not of 8 years, but of 30 years, 
and he comes out 54 years old, doesn't have a high school 
diploma, doesn't have a job, doesn't have a license.
    Then he goes out, because he can't work, doesn't have a 
place to stay, and 3 weeks later he's back. You say, what 
happened? Well, no one did anything to prepare him for the life 
that he's going to experience. My sense is that we've got to 
think of not just the role of prosecutors, defense lawyers, and 
police, but who are the problem solvers? No one has that role 
in the criminal justice system. No one has to say, ``my job is 
to resolve the problem, and my job is to do it in a smart and 
creative way.''
    It's being done by Chief Bratton and others, and police now 
are more creative about it. It's being done by judges, as I 
mentioned earlier, who are looking at the disparities between 
two penalties and saying, well, let me do what I think makes 
the most sense, and still be punitive.
    One hundred and thirty months is still a lot of time, as 
opposed to 160, no one is walking free. But I think the real 
goal here is to figure out if we can have some group of people 
who can step back and say, our job is to solve this problem in 
a cost-effective way, and if we can't punish everyone as 
severely as we'd like, how can we make them accountable?
    My sense is, you've got to get a job, you've got to go to 
work, you've got to earn a salary, you've got to pay your 
taxes, you've got to respect the community. I mean, there are a 
whole series of things that we think that can be done, and 
we've seen that happen. I should say, if you look at the 
testimony submission, virtually every single program that I 
mention in here is an organic one. Some community person said, 
I want to do this for these kids, and then they got a little 
bit of money, then they got a little State money, and then they 
got some Federal money.
    So it was somebody locally who couldn't go to the mayor, 
the Governor, or the city council or the legislature, but 
somebody in Washington said, that's a very good idea, the youth 
bill. That's a very good idea, L.A. is best when kids are in 
school and staying off the streets. So my sense is that the 
Federal Government shouldn't tell the local government what to 
do, but it seems to me the Federal Government should find ways 
to support creative programs. It's a competition. You don't get 
it just because you're there, you have to prove to me that 
you're doing something that makes a substantive difference in 
the quality of life, not just of those in the criminal justice 
system, but those who are fearful of walking down the streets, 
shopping in the supermarket, living in the neighborhood. That's 
what we have to do to have a comprehensive and sane, and I 
would smart and creative, criminal justice policy.
    Senator Klobuchar. Very good. And I hope you didn't believe 
that I was against looking at this, because I come from a State 
which, I didn't always like to say, has the lowest 
incarceration rate in the country, but pretty much so. We use 
probation all the time in a very positive way, and I think a 
lot can be learned from that, especially at the Federal level. 
But one thing you mentioned that I think is really important to 
note is that a lot of times politicians don't want to pretend 
people are going to get out, and some offenders should never 
get out, do never get out, but many offenders do get out.
    I think the willingness to focus on that part of the time, 
what education they get when they're in prison--no one wants to 
say they're getting out, but they are, so the more we can do to 
equip them with those skills and to help them get jobs when 
they get out--we have a great program in the Twin Cities called 
Twin Cities Rise that has actual numbers.
    This is one of these things that bugs me with programs, is 
a lot of times you have no idea what works and what doesn't. I 
think that we really need to have a focus on that as well. But 
they have the numbers to show that they're willing to take 
people in, train them, and get them out there in workforce. And 
certainly at this difficult time in the economy it's even 
harder for ex-inmates to come out and get jobs, and so I 
appreciate that focus, and it must be a focus of this 
commission. Thank you.
    Professor Ogletree. I should also say that you know Cathy 
Rickman, who is the co-chair with me of the Juvenile Justice 
Section of the Criminal Justice Section of the ABA, and we've 
been doing this very much. Donald Lewis, who's a classmate of 
mine, the new dean of Hamline----
    Senator Klobuchar. From Minnesota, yes.
    Professor Ogletree. All of us have been talking about, how 
do we do something for children? That is, we can't save 
everybody, but if we can prevent something early, that makes an 
enormous amount of difference. Minnesota is one of those States 
that we've seen as a model of intervening in people's lives at 
an early point and staying there until the problem is solved, 
and it's made a tremendous difference in the recidivism rate 
and the crime rate.
    Senator Klobuchar. Thank you. And I do think the other 
thing that made some difference, because we were called 
``Murderopolis'', was that we had some tough sentences that we 
were able to use.
    Professor Ogletree. Right.
    Senator Klobuchar. And I think the key is to have it be a 
chisel and not a hammer in trying to get to the right place. 
We're never going to be perfect, but maybe because I had to 
play that voice in our State for so long, we have been called 
the land of not just 10,000 lakes, but 10,000 treatment 
centers.
    Professor Ogletree. Right.
    Senator Klobuchar. So I believe that it's important to have 
both, and I appreciate the work that you've all done. Thank you 
very much.
    Senator Specter. Thank you, Senator Klobuchar.
    We will make a part of the record letters, statements, and 
reports from The Rand Corporation, Human Rights Watch, National 
Association of Criminal Defense Lawyers, Council of Prison 
Locals, AFGE, AFL-CIO, Federal Cure, Inc., Crimeon 
International, Goodwill Industries International, Russell 
Simmons, Kings County D.A. Charles Hahns, Families Against 
Mandatory Minimums.
    [The letters, appear as a submission for the record.]
    [Annditional material is being retained in the Committee 
files, see contents.]
    We thank you all very much, Chief Bratton, Professor 
Ogletree, Mr. Walsh, and Mr. Nolan.
    That concludes our hearing.
    [Whereupon, at 4:25 p.m. the Subcommittee was adjourned.]
    [Submissions for the Record follow.]
    
[GRAPHIC NOT AVAIABLE IN TIFF FORMATS]
    
        
                                 <all>

</pre></body></html>
